<html>
<title> - ACCOUNTABILITY IN CRISIS: GAO'S RECOMMENDATIONS TO IMPROVE THE FEDERAL CORONAVIRUS RESPONSE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]







                    ACCOUNTABILITY IN CRISIS: GAO'S 
                       RECOMMENDATIONS TO IMPROVE 
                    THE FEDERAL CORONAVIRUS RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2020

                               __________

                           Serial No. 116-100

                               __________

      Printed for the use of the Committee on Oversight and Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov 
                             
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
41-892 PDF               WASHINGTON : 2020
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Ro Khanna, California                Bob Gibbs, Ohio
Kweisi Mfume, Maryland               Clay Higgins, Louisiana
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Chip Roy, Texas
Peter Welch, Vermont                 Carol D. Miller, West Virginia
Jackie Speier, California            Mark E. Green, Tennessee
Robin L. Kelly, Illinois             Kelly Armstrong, North Dakota
Mark DeSaulnier, California          W. Gregory Steube, Florida
Brenda L. Lawrence, Michigan         Fred Keller, Pennsylvania
Stacey E. Plaskett, Virgin Islands
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                David Rapallo, Committee Staff Director
            Russ Annello, Select Subcommittee Chief Counsel
         Funmi Olorunnipa, Select Subcommittee General Counsel
                     Amy Stratton, Committee Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Blaine Luetkemeyer, Missouri
Jamie Raskin, Maryland               Jackie Walorski, Indiana
Andy Kim, New Jersey                 Mark E. Green, Tennessee 
















                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 26, 2020....................................     1

                               Witnesses

The Honorable Gene L. Dodaro, Comptroller General of the United 
  States, Government Accountability Office
Oral Statement...................................................     6

Orice Williams Brown, Director, Financial Markets and Community 
  Investment (accompanying)
Oral Statement...................................................     6

A. Nicole Clowers, Managing Director, The Healthcare Team 
  (accompanying)
Oral Statement...................................................     6

Written opening statements and the statement for the key witness 
  are available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

No additional documents were entered into the record during this 
  hearing.

 
                    ACCOUNTABILITY IN CRISIS: GAO'S 
                       RECOMMENDATIONS TO IMPROVE 
                    THE FEDERAL CORONAVIRUS RESPONSE

                              ----------                              


                         Friday, June 26, 2020

                   House of Representatives
      Select Subcommittee on the Coronavirus Crisis
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 1324, Longworth House Office Building, Hon. James E. 
Clyburn (chairman of the subcommittee) presiding.
    Present: Representatives Clyburn, Waters, Maloney, 
Velazquez, Foster, Raskin, Kim, Scalise, Jordan, Luetkemeyer, 
and Green.
    Mr. Clyburn. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. I now recognize myself for 
an opening statement.
    Today, the Select Subcommittee is pleased to welcome Gene 
Dodaro, the Comptroller General of the United States and head 
of the General Accountability Office. GAO is an independent, 
nonpartisan watchdog, and it is essential to Congress's 
oversight of the executive branch. This oversight may be more 
important than ever before. More than 120,000 Americans have 
died from the coronavirus pandemic, the most of any country on 
earth. New infections have been rising for weeks, and two days 
ago, we reached the highest number of new cases on record, more 
than 37,000 in a single day. It is clear that the 
administration's attempts to contain this virus have failed 
thus far.
    At the same time, huge numbers of Americans are out of 
work, including 1.5 million who filed new unemployment claims 
in just the past week. In the CARES Act, which passed with 
broad bipartisan support, Congress directed the GAO to monitor 
and oversee the Federal response to the coronavirus pandemic, 
and the spending of relief funds and to report its findings 
back to Congress.
    Yesterday, GAO issued its first mandated report, and I have 
it with me, and I think all of you have copies of the report.
    It is also alarming the report identifies significant 
problems with transparency and accountability in the Federal 
response. In particular, the Trump administration is refusing 
to cooperate with GAO's oversight, even though this cooperation 
is required by law.
    For example, the Small Business Administration has 
obligated more than $512 billion in taxpayer dollars to the 
Paycheck Protection Program. Yet, GAO reports that SBA has, and 
I quote, ``failed to provide information critical to our 
review,'' end of quote. As a result, GAO cannot determine 
whether taxpayer funds are being effectively targeted at 
struggling small businesses, or, instead, are being diverted by 
waste, fraud, abuse, and mismanagement.
    Last night, the SBA notified the select subcommittee that 
it is now offering to provide GAO with loan data it had 
previously withheld, with certain conditions. I am pleased that 
the SBA is finally showing some willingness to obey the law and 
cooperate with GAO, but it is troubling that the administration 
withheld this information until the eve of a congressional 
hearing exposing their obstruction.
    GAO's report also raises serious concerns that the 
administration is failing to effectively manage key programs 
and hold recipients of Federal funds accountable.
    For example, GAO found SBA failed to implement oversight 
mechanisms that were essential to weed out fraud and abuse in 
PPP programs. As a result, there is a significant risk that 
some fraudulent or inflated applications were approved. GAO 
also found that accuracy and reliability issues, which were 
just approved by the Trump administration, resulted--and I am 
quoting here--``resulted in significant delays in testing 
nationwide during the critical early weeks of the outbreak,'' 
end of quote.
    GAO also identifies serious problems with efforts to 
procure and distribute critical protective equipment and 
medical supplies. GAO reports that the administration learned 
about potential shortages even before the pandemic but failed 
to act.
    GAO's report also highlights problems with the delivery of 
economic impact payments authorized by the CARES Act. These 
payments were designed to help Americans get back on their feet 
quickly. But according to a recent estimate, the IRS still has 
not sent out between 10 and 12 million payments, nearly three 
months after Congress passed the CARES Act.
    As a result, many vulnerable Americans have yet to receive 
these critical funds. The American people deserve to know how 
their taxpayer dollars are being spent, and whether the 
government is doing all it can to protect them from the 
coronavirus pandemic.
    I am deeply troubled by GAO's findings that the 
administration is seeking to evade accountability by 
undermining GAO's oversight efforts. And make no mistake, the 
administration's refusal to cooperate with GAO is part of a 
broader effort to undermine, evade, and ignore effective 
oversight during this pandemic.
    The administration has removed inspectors general, withheld 
basic information from Congress, and issued inaccurate legal 
opinions to try to keep billions of dollars in spending a 
secret. The American people deserve better.
    I want to make something clear: The purpose of this 
oversight is not to cast blame for past failures, but to make 
improvements to ensure future success. The goals of the select 
committee are the same as the goals of the administration, to 
save American lives and livelihoods.
    Our message to the administration is this: We want to help 
you achieve these goals. In this time of national crisis, I 
sincerely hope that my colleagues on both sides of the aisle, 
as well as members of the Trump administration, will recognize 
the value of being transparent with each other, and with the 
American people. That starts with cooperating with GAO as 
required by law.
    I am grateful to Mr. Dodaro for appearing here today, and 
to all of the dedicated professionals at GAO who have 
contributed to this report. These are unprecedented times, and 
GAO has risen to the challenge to help us ensure the Federal 
response to the coronavirus pandemic is efficient, effective, 
equitable, and transparent.
    Thank you.
    I'll now yield to the ranking member for an opening 
statement.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
calling this hearing, especially to have it here in person. 
This is something that we have been asking for a long time. Our 
members feel strongly that just the ability to interact in 
person in a committee setting that can properly social distance 
while allowing us to do our business here is much more 
effective, and gives us much more of the ability to get the 
proper oversight that we expect and the people of this country 
deserve.
    I want to begin by thanking the GAO for producing an 
initial report on the Federal Government's response to the 
COVID pandemic in such a short period of time. An analysis of 
the largest and fastest relief effort in American history, 
while that relief effort is still being implemented, is a huge 
task.
    The report has some important insights and recommendations, 
but we should all recognize the limitations of this analysis. 
We asked, and, in fact, we demanded, that the Federal 
Government build a plane in mid-flight. The GAO report is an 
attempted assessment before that plane has even landed.
    Let's start from the beginning. It is beyond doubt that the 
Chinese Communist Party actively engaged in a cover-up and 
suppressed doctors and journalists who attempted to warn the 
world about a novel deadly virus. Senior Chinese leaders knew a 
pandemic was ongoing weeks before it was announced.
    During a critical period in December and January, China 
withheld evidence of the virus, evidence that confirmed human-
to-human transmission of the virus, evidence of the extent of 
the spread. China refused entry of American and other medical 
experts from around the world for weeks, and during this time, 
China hoarded medical supplies, like masks, gowns, and other 
life-saving PPE. Chinese exports of surgical masks, gowns, and 
gloves were stifled by the Chinese Communist Party during this 
period. China knew the danger posed by the virus, and while 
they hid the truth, they used this vital time to stock up on 
vital medical supplies.
    While Chinese authorities limited domestic flights from 
Wuhan to other Chinese cities, like Beijing and Shanghai, 
China's government urged international carriers to maintain 
their flight schedules, seeding the virus throughout the rest 
of the world.
    The World Health Organization said as late as January 23, 
quote, ``This is an emergency in China, but it has not yet 
become a global health emergency. At this time, there is no 
evidence of human-to-human transmission outside China,'' closed 
quote.
    The WHO exists to stop pandemics. We're told to trust the 
experts. And while China was hoarding PPE and sending infected 
patients around the world, the WHO corruptly misled the world, 
telling us not to worry. This committee is failing its mission 
if we don't hold China and the WHO accountable for these facts 
that they withheld from America and the rest of the world that 
caused tens of thousands of deaths just in this country alone.
    Sadly, we know how quickly the virus spread in America. The 
first death was February 29, and in four months, we have lost 
over 120,000 of our families, friends, and neighbors. The House 
passed the first COVID relief package on March 4, five days 
after the first reported death. Congress passed another bill on 
March 14. And on March 27, the President signed the CARES Act.
    Together, these bills represent the largest relief effort 
in American history. Our great economy was shut down. 
Overnight, millions of Americans were at risk of losing their 
jobs. China had put us behind on testing. Republicans and 
Democrats alike demanded speed and, thank goodness, we did, 4.5 
million PPP loans, totaling over $500 billion in just three 
months.
    Leaders of all shapes and sizes, including large banks, 
community banks, credit unions, and small banks, participated 
in this program. More than 5,400 lenders have participated to 
date. Mr. Chairman, we should hear testimony from the millions 
of small businesses who were saved by the PPP. PPP has been a 
smashing success; but given the speed we demanded and the 
overwhelming need in any program this massive, there are always 
mistakes made and lessons to be learned.
    The GAO report finds that SBA's reliance on applicant self-
certification left the PPP program, quote, ``vulnerable to 
exploitation.'' Mr. Chairman, SBA chose to rely on self-
certification because of the need to expeditiously provide 
funds to small businesses. Congress demanded that speed. Would 
anyone have preferred SBA to take months to design a mistake-
free program, while millions of small businesses and tens of 
millions of workers lost everything they had in their lives?
    I appreciate GAO reviewing the program and making 
recommendations of how to improve. Each of us should take 
seriously those recommendations, but the partisan attacks from 
Democrats on this subcommittee that seem to imply that the 
Trump administration should have slowed down the PPP, that goes 
against everything that we all voted on. Every Democrat and 
Republican who voted for the CARES Act chose speed over 
perfection. We didn't have that luxury, our economy didn't. The 
millions of families who have been saved from this program 
would have died on the vine waiting for some perfectly run 
Federal program, which I would love to see an example of that.
    The GAO says HHS has experienced, quote, ``substantial 
challenges'' with its initial COVID-19 response. The worst 
pandemic in over 100 years hit our shores suddenly because 
China lied and covered up the danger. Yes, I agree HHS was 
faced with historic challenges. Past administrations and 
Congresses, by the way, did not do an adequate job of keeping 
the national stockpile supplied, and then we faced China's 
hoarding.
    But look at what America has accomplished. More than 28 
million tests for COVID-19 have been performed in the United 
States, so many now that some are complaining about all of the 
positive COVID responses that we're seeing after they demanded 
more tests. We have more tests, we have more COVID positives. 
That was something everybody knew would happen. Most days now, 
we're conducting over 500,000 tests per day, and we're 
expanding that capacity. FEMA has procured and delivered over 
25 million swabs to support the administration's testing 
blueprint.
    As of June 17, FEMA, HHS, and the private sector combined a 
coordinated delivery of over 150 million N95 respirators, 631.8 
million surgical masks, over 16 billion gloves. FEMA 
coordinated two shipments, totaling a 14-day supply of personal 
protective equipment to over 15,000 Medicaid and Medicare 
certified nursing homes, which is something we need to 
investigate further. The shipments are meant to supplement 
existing efforts to provide equipment to nursing homes.
    We have accomplished a great amount in a short period of 
time. We have a long way to go. We need the efforts on 
therapies, vaccines, and cures to move forward at warp speed. 
Thankfully, the Trump administration has launched Operation 
Warp Speed to find vaccines and therapies. Congress needs to be 
a partner, not an obstacle, to the success of Operation Warp 
Speed.
    House Democrats actually plan to bring a drug price control 
bill to the floor next Monday. CBO has said that your plan 
would actually reduce the creation of lifesaving drugs. The 
Council of Economic Advisors says that number could be up to 
100 or higher lifesaving drugs not brought to market if the 
bill you are going to bring next week is to pass.
    There is never a good time to stifle innovation and 
investment in lifesaving cures, but this seems to be an 
unthinkable time to pursue policies that will slow down the 
development of a vaccine.
    I am calling on Speaker Pelosi to pull this bill from 
further consideration on Monday. We do not need to be slowing 
down the search for a cure.
    We still need to hold a hearing focused on holding China 
accountable. And while this committee spends so much time 
trying to find things that went wrong, we should also highlight 
some of the things we did well, like the PPP, which has saved 
thousands of lives and millions of jobs. We should join 
together and demand that the five governors who issued deadly 
nursing home orders, going against the Federal guidelines, 
finally comply with the demands that we have sent forward to 
turn over the data so that we can actually have transparency 
and accountability for the tens of thousands of seniors who 
died unnecessarily in nursing homes because those governors 
violated the Federal guidelines. I hope we search for those 
answers.
    With that, Mr. Chairman, I yield back.
    Mr. Clyburn. Thank you, the gentleman, for yielding back.
    Our witness today is the Comptroller General of the United 
States, Mr. Gene Dodaro.
    Will the witness please stand so I can swear him in.
    Now, I understand that there are others who may be 
testifying today who would like to be sworn in as well.
    Mr. Dodaro. That's correct.
    Mr. Clyburn. Mr. Orice Williams Brown----
    Mr. Dodaro. That's correct.
    Mr. Clyburn [continuing]. Director for the Financial 
Markets and Community Investment, and A. Nicole Clowers, 
Managing Director of the Healthcare Team.
    I will ask both of you to stand and step forward. I would 
like to see you.
    Thank you. I appreciate it.
    Please raise your right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that all three witnesses answered in 
the affirmative.
    You may be seated.
    Without objections, all of your written statements will be 
made part of the record.
    With that, Mr. Dodaro, you are now recognized for your 
testimony.

 STATEMENT OF HON. GENE L. DODARO, COMPTROLLER GENERAL OF THE 
UNITED STATES, GOVERNMENT ACCOUNTABILITY OFFICE, ACCOMPANIED BY 
ORICE WILLIAMS BROWN, DIRECTOR, FINANCIAL MARKETS AND COMMUNITY 
   INVESTMENT; AND A. NICOLE CLOWERS, MANAGING DIRECTOR, THE 
                        HEALTHCARE TEAM

    Mr. Dodaro. Thank you very much, Chairman.
    Good morning to you, Ranking Member Scalise, members of the 
subcommittee. I am very pleased to be here today to talk about 
our first comprehensive assessment of the set of legislation 
that the Congress swiftly passed and the administration has 
been working hard to implement.
    We determined that the first two months after the 
legislation was passed, there was $1.2 trillion of assistance 
provided in the form of almost $700 billion in direct spending, 
and over $500 billion in loan guarantees. Now, this assistance 
was accompanied by a lot of dedication and agility by various 
segments of our society. We had heroic efforts made by our 
healthcare workers across the country. There were significant 
efforts put forward by the Federal work force to implement this 
legislation. State and local governments and others made 
valuable contributions and continue to do so.
    Now, with regard to the Federal agencies, they gave a high 
priority, given the urgency of healthcare needs and the severe 
economic downturn, to move swiftly to allocate the funds, as we 
point out in our report. There were tradeoffs that were made, 
and our report is designed to help them make some mid-course 
corrections with regard to those tradeoffs. But as a 
consequence, we've made good progress in distributing the 
money, but only limited progress in ensuring and meeting the 
transparency and accountability goals.
    Now, our report provides a very comprehensive assessment 
across the entire Federal Government. But this morning, in my 
opening comments, I'll just focus on those areas that I think 
our initial recommendations for improvement focus on.
    First is the PPP program. I agree that they made swift 
allocations, standing up a nationwide program and distributing 
the money; but there were some issues that I think need to be 
attended to very quickly. So, our recommendation--there was a 
lot of confusion with the program. It was, you know, 
implemented with a stream of frequently asked questions and 
guidance, and, so, there is some confusion that still remains 
with the program. But all being said, they need an oversight 
plan to ensure that the funds are safeguarded. There's already 
some indications of fraud in the program, and I'm pleased to 
report, that Administrator Carranza called me last night, 
agreed that they'd just give us the information that we needed 
in order to go forward.
    So, we're in the process of finalizing arrangements for 
that. I also offered to help them as they design their 
oversight and monitoring plans, and she accepted my agreement.
    On the unemployment insurance area, states are struggling 
to implement the program because of the antiquated systems, 
need for additional staffing. However, there's a potential 
problem with overlap between unemployment benefits and 
employees who may have received aid under the Paycheck 
Protection Program that we're not paying people twice. We 
recommend they give guidance. They agree, they're going to give 
guidance.
    At IRS, the Treasury Inspector General for Tax 
Administration identified 1.4 million payments of $1.4 billion 
of aid that was provided to deceased. We recommend IRS take 
more measures to get that money back. They have done so.
    We also recommend that the Congress give Treasury the 
authority to have the master deaths file from the Social 
Security Administration so they could prevent these payments 
from being made, not just here, but across the range of the 
Federal Government's activities.
    We also recommend that the Congress require the Department 
of Transportation to develop a national aviation security plan 
for communicable diseases. We recommended this in 2015. So far, 
there's not a plan because of bureaucratic wrangling about 
who's responsible for developing it. I think Congress needs to 
give clear direction in this regard. The vessel in which this 
virus was spread around the world very quickly came through our 
air transportation system. We will always be behind the curve 
unless we have a national aviation security plan that's 
coordinated, and with some international norms to protect 
safety in that area.
    So, Mr. Chairman, as I conclude my statement, I want to 
assure this committee that we're going to continue to focus on 
this, to meet our statutory responsibilities, to report every 
two months. We also have about 40 audits underway now, dozens 
of others planned for specific areas.
    So, we're pleased that you took time to focus on our 
report, and we look forward to working with the Congress and 
the administration to make sure that these programs are 
effectively and efficiently implemented for the benefit of the 
American people and our economy.
    Thank you very much.
    Mr. Clyburn. Thank you very much for your testimony.
    We will now go into Q&A. Each member will be granted five 
minutes to ask questions.
    And let me recognize myself for five minutes.
    Mr. Dodaro, according to your report, the Federal 
Government spent at least $677 billion in response to this 
pandemic as of May 31, 2020. With that much money at stake, 
robust and sustained oversight by GAO is essential, but you can 
only do your job if the executive branch cooperates.
    Now, my question is, why is it so important for the Trump 
administration to cooperate with the GAO's oversight?
    Mr. Dodaro. There's two fundamental reasons: One, we want 
to make sure that we fairly represent their views and all of 
the things that they considered in carrying out this 
legislation. Our goal is to always provide a balanced, fair, 
comprehensive picture.
    Second, we need the information in order to make our 
assessments. The data are critical to doing analysis and 
carrying out our responsibilities. So, without the data, 
there's a totally incomplete picture of what we have had.
    Now, I would note that in April, right after the 
legislation was passed, I sent a letter to all of the major 
departments and agencies of the Federal Government explaining 
the fact that we were going to be doing real-time auditing, add 
a report and monthly briefings to the Congress, and bimonthly 
reports to the Congress, that we needed their cooperation.
    By and large, we got that cooperation across the vast range 
of Federal agencies and departments. Some--you know, the IRS 
Commissioner made himself and his deputies available to talk to 
our team, and other agencies were very helpful.
    We really only encountered the most significant problem in 
SBA, and I talked to Administrator Carranza, I talked to 
Secretary Mnuchin about it. We're in the process of working it 
out. So, I think we have turned a corner. But it is essential 
for us to do our job, to help Congress do its job, we need to 
have access to all of the information and all of the agency 
officials that are responsible for these programs, Mr. 
Chairman.
    Mr. Clyburn. Well, thank you for that.
    I noticed that you mentioned the SBA as being a significant 
problem. Now, the SBA is administering $670 billion in the PPP 
program. That's one of the largest relief programs in the 
history of the country. But according to your report--and I'm 
quoting you here--SBA, to date, has failed to provide 
information critical to our review.
    I would like for you to take a minute to tell us the kinds 
of information that SBA withheld, and what is its impact on 
GAO's efforts to prevent waste, fraud, and abuse in the PPP 
program?
    Mr. Dodaro. Yes, sir. Two categories of things:
    One, the most significant, was access to their data base as 
to who received the loans and how much, what the 
characteristics are. We still don't know what information they 
collected versus what information the banks and other financial 
agencies have at their offices and control.
    So, you know, we weren't able to do an analysis, other than 
what the data was they provided publicly on their website, as 
to, you know, aggregate data about different industries, 
different sizes of the loans; but we don't have the specific 
data yet, which is what they promised to provide now, but we 
didn't have it to do this report, and that's why we said what 
we did.
    I elicited support from Members of Congress on a bipartisan 
basis to talk to SBA to encourage them to release the 
information to us, and those efforts, I believe, have paid off. 
So, we're going to get the data, but we didn't have it to do 
this report.
    Second, we didn't have access to the key program people. 
Now, I recognize that they're busy, but people were busy across 
the government that made time to meet with us. So, while they 
did make some officials available, they weren't the ones we 
really wanted to talk to. So, now they have agreed to make 
those officials available to talk to us.
    So, those are the two missed categories, Mr. Chairman. But 
the data is essential for us. Otherwise, we can't tell the 
Congress, you know, specifically, you know, what type of 
companies got this assistance, and we can't carry out any 
potential risk analysis of what the potential may be for 
inflated applications, or even people, you know, submitting 
false information to the government.
    There have already been cases reported by the Justice 
Department and the SBA IG of people willfully misrepresenting 
the information. So, they're pursuing a lot of investigations 
already.
    Mr. Clyburn. Well, thank you.
    I gather from your statement that you feel that the 
information you received the last several hours and the names 
that have been submitted to you, these people are sufficient 
for you to get the information?
    Mr. Dodaro. If they provide us--we still--the data this 
morning, we're still working out the details to transmit it, so 
we don't have it. We expect it at any time. If they give us 
what they say they're promising to give us, which is everything 
in the data base, then we will have the sufficient information. 
I will let this committee know----
    Mr. Clyburn. Please.
    Mr. Dodaro [continuing]. One way or another as soon as we 
receive the information and assess it.
    Mr. Clyburn. Well, I hope that you will let us know very 
soon if you do not receive it.
    Mr. Dodaro. I'll let you know one way or the other.
    Mr. Clyburn. Very good.
    Mr. Dodaro. Yes, one way or the other, Mr. Chairman.
    Mr. Clyburn. Thank you very much.
    With that, I'll yield to the ranking member.
    Mr. Scalise. Thank you, Mr. Chairman, and thank you, Mr. 
Dodaro, for coming to testify about the report as we've seen 
things so far.
    I am encouraged to hear that you are testifying that you 
are in a negotiation to get the data that you are looking for 
from the administration. Is that correct?
    Mr. Dodaro. That's correct.
    Mr. Scalise. And those appear to be good faith 
negotiations?
    Mr. Dodaro. Yes, indeed. I talked to Administrator Carranza 
in May, encouraging her, following up on my April letter, and 
they agreed to work to provide the data, but they just didn't 
do it. I think they have been, you know, in part, overwhelmed, 
to be fair, you know, but we have our statutory obligations.
    Now, Congress said they want the information quickly, and 
so we had an obligation by law to provide it. I talked to 
Secretary Mnuchin as well. I talked to the Small Business 
Oversight Committee.
    Mr. Scalise. And do you feel Secretary Mnuchin has been 
cooperative in those conversations?
    Mr. Dodaro. Yes, yes.
    Mr. Scalise. I know we're limited on time----
    Mr. Dodaro. But I just--you know, the conversations have 
been good. The one I had last night was the most promising, 
which was we would receive the information eminently.
    Mr. Scalise. That's with the SBA?
    Mr. Dodaro. Yes.
    Mr. Scalise. Look, I mean, I appreciate that you are 
sharing with us how overwhelmed any agency would be to have to 
deal with this much relief, which we wanted, by the way. We 
wanted to push this out the doors as quickly as possible to 
save--I mean, if we were still trying to figure out the rules 
and get agreements on how to properly do this, there would be 
millions of people out of work on top of what we already have, 
and there would be millions of small businesses that wouldn't 
even open, they would be gone. We know that, and so, we do want 
to make sure we get it right.
    But, in the meantime, for somebody to suggest that the 
administration is refusing to cooperate kind of flies in the 
face of what you are testifying before us today about, that 
there is cooperation, there's negotiation, which would happen 
in any request for data that, OK, you have gotten a lot of 
data. There's some other things you are trying to get. They are 
trying to figure out what they should turn over and what wasn't 
in the agreement, but at least that's going on, and you feel 
like that's going on in a positive direction?
    Mr. Dodaro. Yes. It didn't start out that way.
    Mr. Scalise. Yes, of course. In any----
    Mr. Dodaro. But it's evolved in a positive direction.
    Mr. Scalise. And ultimately that's where you want it to go?
    Mr. Dodaro. That's correct.
    Mr. Scalise. You want to see progress. You want to see 
cooperation, and you are getting that cooperation, and I 
appreciate that. That's important testimony.
    I do want to ask about a few things because, for example, 
last year, do you know how many loans under the seven-day 
program SBA gave out all of last year?
    Mr. Dodaro. I don't have that number, but I know----
    Mr. Scalise. I have heard numbers somewhere around the 
36,000 level.
    Mr. Dodaro. I know what they have given out now is far----
    Mr. Scalise. How many have you seen this year just since 
the pandemic?
    Mr. Dodaro. Well, they had 4.2 or 4.6----
    Mr. Scalise. Four-point-six sounds more like what I have 
heard.
    Mr. Dodaro [continuing]. Million as of----
    Mr. Scalise. So, if they've done 4.6 million this year--and 
that's just in about how many weeks? Maybe eight weeks?
    Mr. Dodaro. That was about eight weeks or so, yes.
    Mr. Scalise. So, in an eight-week period, SBA has given out 
about 4.6 million loans. All of last year, all 52 weeks of last 
year, they gave out about 36,000 loans. That's not 10 percent 
more. It's not 50 percent. In fact, it is over 125 percent more 
loans they've given out----
    Mr. Dodaro. Right.
    Mr. Scalise [continuing]. In an eight-week period than all 
of last year. And, by the way, that's something we should be 
applauding because we wanted them to do it. We asked for them 
to do it. To do it, you have to move at rapid speed, and they 
met our demand.
    To criticize them for being so expeditious and saving 
millions of small businesses would go against the very things 
that we as Congressmen and Women voted for and, again, a very 
bipartisan bill in the passage of the CARES Act. That's what we 
asked them to do.
    Mr. Dodaro. Yes.
    Mr. Scalise. I'm glad they're doing it. I have heard 
estimates of over 99 percent of all of the loans are being 
carried out properly. If there's fraud and abuse, absolutely 
root it out. I am glad you said--isn't it correct you testified 
that IRS is working to go after that money if there's any kind 
of fraud you find?
    Mr. Dodaro. Yes.
    Mr. Scalise. I would love to see loan programs in any 
segment of our economy that have an over 99 percent compliance 
rate; you go after the folks that are doing wrong. But in an 
eight-week period, to give out over 4.6 million loans and to 
see it, by and large, being carried out the way we would all 
expect it to do, is, I think, something we should be 
applauding. Again, go after folks that are doing it the wrong 
the way. I'm glad the administration is cooperating and being 
aggressive in that front.
    I do want to ask you about testing. This comes up a lot. We 
have heard people complaining there's not enough testing. The 
administration has worked at warp speed, working with the FDA, 
in fact, getting the FDA to move red tape that they normally 
would take two years to approve testing, they're doing it in 
weeks now. So, we're getting that testing, which everybody knew 
would show more positives, and then you have people complaining 
that there are more positives after they've complained there 
wasn't enough testing.
    Wouldn't it be fair to say if you do more tests, you get 
more positive cases?
    Mr. Dodaro. That's one potential reason. I mean, another 
reason----
    Mr. Scalise. Finally, final question, we--some of us on 
this committee have been demanding answers from five governors 
who went against CMS guidelines on nursing homes. 
Unfortunately, those deadly orders led to tens of thousands of 
people dying, who shouldn't have, in nursing homes. Forty-five 
governors got it right, Republican and Democrat.
    Would you help us get the data? Because those governors 
right now are refusing to give us the data that anybody should 
see. Victims' families, by the way, have been contacting us by 
the thousands asking for that same data, and the governors are 
refusing to get it.
    Will you work with us to get the data, as we should all be 
able to have access to, that shows what really happened with 
this disease in nursing homes, so we can make sure it doesn't 
happen again and save maybe thousands more lives?
    Mr. Dodaro. Be happy to work with the committee.
    We did a report recently that showed that 82 percent of the 
nursing homes--this is pre-pandemic--had cited for violations 
for inspections. About half of the nursing homes had cited for 
violations every year during, I think it was 2012 to 2017.
    Mr. Scalise. We would love to work with you on getting that 
information.
    Mr. Dodaro. Yes. So, this is a very important issue. We're 
happy to work with you on it.
    Mr. Scalise. Thank you so much.
    Mr. Chairman, I yield back.
    Mr. Clyburn. Thank you, gentleman.
    The chair recognizes Ms. Maloney for five minutes.
    Mrs. Maloney. Thank you, Chairman, for calling this 
important hearing.
    And I thank the Comptroller for being here, Comptroller 
General, and for your very excellent report on opportunities to 
improve the Federal response. You go through a lot of the 
challenges and point them out, and then suggestions. And I just 
want to point out how helpful it is, as we are going through 
the coronavirus, to have this report. It shows how important 
GAO and the IGR in finding the problems and pointing to some 
solutions.
    I want to hear what your solution is for the 1.4 billion 
that was sent out to dead people. We may be sending out money 
again to help people, depending on how the coronavirus develops 
or doesn't develop. And what are you doing? Just checking with 
Social Security? What is the solution going forward that this 
does not happen again?
    Mr. Dodaro. Yes. What happened was, you know, IRS initially 
determined that the deceased people, or anybody who filed a 
return in 2018 or 2019, should be paid. So, they knew they were 
paying people who were deceased. Then it became known publicly. 
Treasury then reevaluated that position and stopped it and 
said, No, we shouldn't be doing that because it's not--you 
know, obviously, they're not benefiting, you know, individuals 
there.
    So, they stopped it going forward. But in order to stop it, 
Congresswoman Maloney, they had to give the Treasury, Fiscal 
Service that actually makes the payments temporary access to 
this death master file that includes information from states. 
It is far more complete than what they had before. For years, I 
have been--I have a recommendation to the Congress to pass 
legislation to give the Fiscal Service, the Treasury access to 
this full death master file. They will stop those payments 
because they do a do-not-paycheck.
    My own mother received a payment. She, unfortunately, 
passed away in February 2018, and my sister got it on behalf of 
my mother, and right on the check it said deceased. She sent me 
a picture of it. Of course, she returned it. A lot of other 
people didn't know. IRS only posted on their website if you got 
one of these, please return it. What we're suggesting is they 
have a proactive approach.
    Actually, since our report was issued yesterday, a couple 
citizens have already emailed us to say they have these checks 
and want to know how to return them.
    So, the IRS agreed, they're going to do it; but Congress 
needs to pass this legislation. I think it is very important 
because it is not only just the IRS stimulus payments, it could 
be payments for agriculture, education, or whatever.
    So, I would encourage you to do that. There has been 
legislation introduced, but it's not been put over the goal 
line yet.
    Mrs. Maloney. Thank you, thank you.
    And I want to go to--return to the testing. Your report 
states that the first tests that were deployed by the CDC--you 
used some of the strongest language I've seen in any of your 
reports--quote, ``experienced accuracy and reliability issues 
that resulted in significant delay in testing nationwide during 
the critical early weeks of the outbreak.'' Your report also 
warns that concerns with the accuracy of the antibody tests and 
the viral tests continued even to June.
    So, how did these, basically, failures, impact our ability 
at the outset of this crisis to determine who had the virus and 
prevent its spread?
    Mr. Dodaro. They were setback in terms of quickly moving to 
get the testing deployed. CDC relied on its own process to 
develop the tests. There was some quality----
    Mrs. Maloney. Can I ask, why did they do that when so 
many----
    Mr. Dodaro. That's historically----
    Mrs. Maloney. Who had a test? All of these countries had a 
test, and we developed our own, and then it didn't work; is 
that----
    Mr. Dodaro. That's correct.
    Mrs. Maloney. And they just discarded that one?
    Mr. Dodaro. Well, they had to because of concerns 
associated with it. Then they opened up testing to the private 
sector and others, and FDA started doing emergency-use 
authorizations. So, they moved quickly after that, but they 
weren't able to get out of the gate very quickly. But they have 
done better since then because they're engaging a broader range 
of people in helping develop the tests. And some of the tests 
are having some problems later. FDA is monitoring it. They have 
withdrawn some emergency-use authorizations if there are 
problems and so--but it is a significant issue.
    Mrs. Maloney. In your report, you go into the procurement 
process. The test didn't work, and then we're trying to get it. 
We couldn't get it from other places, and there really was a 
lot of criticism about the procurement testing supplies and the 
way it was coordinated. In your view, did you find out why they 
weren't coordinating it and working more together?
    I heard the complaint in the news where states would say 
we're competing against other states for supplies, and everyone 
was pleading with the government to come in and coordinate it 
on a national level and make it available to people, and yet, 
it didn't happen. And actually, my state and other states are 
still asking for Federal coordination, that we feel that it 
would work better.
    Did you find out why they determined that they would not 
follow really the suggestion of FEMA and others to have a 
coordinated national strategy for distribution, procurement, 
and everything, of the supplies.
    Mr. Dodaro. Yes. We're still looking at that issue in more 
depth, but what we have seen--and this is true in the past with 
plans and exercises, including one of which was done just last 
fall by the administration, that there's always lack of clarity 
on roles and responsibilities in these endeavors among Federal 
agencies, as well as Federal, state, and local 
responsibilities.
    So, those things--and when you are trying to short them out 
in the midst of an emergency, it's a problem. So, we recommend 
in our report, that's one of the evolving lessons learned that 
we're going to keep for the Congress. And there needs to be 
greater clarity in roles and responsibilities here, and 
particularly, you know, if the Federal Government wants to rely 
on the states to do the testing, then they have to figure out 
how to help them get these supplies because they have unique 
authorities, which they have begun to do, the Defense 
Production Act, and other things. So, they're making a lot of 
efforts and headway, but the problem keeps evolving with new 
cases, et cetera.
    So, there's a unified command group that's made up of HHS 
Assistant Secretary for Preparedness and Response, FEMA, and 
CDC, and so they're working together now. So, I think that 
that's encouraging.
    Mrs. Maloney. My time has expired.
    Mr. Clyburn. The gentlelady's time has expired.
    The chair recognizes Mr. Jordan for five minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    So, the GAO has issued a report that a brand new government 
program has got some problems, got a few glitches. Ain't the 
first time that's happened, is it, Mr. Dodaro?
    Mr. Dodaro. No, sir.
    Mr. Jordan. How many years have you been at GAO?
    Mr. Dodaro. Actually today, Congressman, is my 47th 
anniversary at GAO.
    Mr. Jordan. Forty-seven years. And we've--how many times 
have you testified? How many times have you testified--thank 
you for your service.
    How many times have you testified in front of Congress, Mr. 
Dodaro?
    Mr. Dodaro. I'm closing in on 200.
    Mr. Jordan. Yes, we've done this a time or two in the 
Oversight committee, haven't we?
    Mr. Dodaro. Yes, we have.
    Mr. Jordan. The gentleman from Pittsburgh has been in front 
of the Oversight Committee many times.
    How many reports have you issued in--well, can you give me 
any number? In that 47 years or, I think, the 12, 13 years you 
have been running it, how many reports have you issued?
    Mr. Dodaro. There's thousands. Since I have become 
Comptroller General, it was probably--and I was No. 2 
beforehand for--so, for 25 years, I would say in the last 25 
years, about 15,000 reports.
    Mr. Jordan. Fifteen-thousand reports. And the Federal 
Government has some problems. Shazam, it should be a news 
flash, right? Four trillion dollars the Federal Government 
spends, and one bill, as you said in your opening statement, 
you said, swiftly passed. We had to swiftly pass it. The 
governors were telling businesses owners, you have got to shut 
down your business, the economy is going to collapse. So, we 
spent $2 trillion. Half of what the government spends annually, 
we spent in one bill. And the Democrats say, wow, we're 
shocked, there were a few glitches.
    I mean, this is--plus, as the ranking member said, we have 
the PPP program, which saved businesses from collapsing, helped 
families across this great country. And somehow the Democrats 
are, oh, we have got a major problem here. It's a good thing we 
did the CARES Act, which they all voted for, by the way, as 
well, we had to. I mean, you are taking people's property, 
taking their livelihoods, telling businesses they couldn't 
operate,
    So, I mean, this shouldn't be a big surprise.
    So, let's talk about a few of the things in this report 
that just came out. On page 108, you referenced the Governor 
from Michigan. According to the Governor of Michigan, who 
testified before the House Committee on Energy and Commerce in 
June 2020, just a few weeks ago, the supplies states received 
from S&S were insufficient to meet the state's needs in early 
days of the pandemic.
    Now, first of all, this is the Governor from Michigan, this 
same Governor who said you could go to a Lowe's, you could buy 
a dishwasher, but you couldn't buy a gallon of paint. This is 
the same Governor who said to her residents in her state, you 
may have a home on a--a small home, a cabin on a lake in 
northern Michigan, your property, but you can't even go to your 
own property. This is what this Governor said, she testified 
and said this, but why don't you look at what China was doing? 
As the ranking member mentioned, China hoarding supplies, why 
didn't you look at that?
    Mr. Dodaro. Well, we don't have the authority to audit 
other countries, nor were we asked by Congress to do this.
    Mr. Jordan. No, but it's an issue, right?
    Mr. Dodaro. I don't dispute the fact that that's an issue, 
but we just don't have the authority to go----
    Mr. Jordan. So, you could put in here a Governor who 
wouldn't let her own people buy a gallon of paint, wouldn't let 
her own people travel to their own property, and you could put 
her statement in the report; but you can talk about equipment 
and masks and things they need, but you can't put in the real 
problem was China was hoarding it and not letting us get access 
to it?
    Mr. Dodaro. I can't audit what I don't have authority to 
do.
    Mr. Jordan. OK. Well, let's talk about another issue that's 
real important that the Ranking Member brought up as well.
    Did CMS issue guidance on March 13 on nursing homes?
    Mr. Dodaro. Yes.
    Mr. Jordan. Yes, they did.
    Did it mandate nursing homes accept COVID positive 
patients?
    Mr. Dodaro. If I could bring Ms. Clowers up?
    Mr. Jordan. You can do whatever you want, Mr. Dodaro.
    Mr. Dodaro. Thank you, Congressman Jordan.
    Ms. Clowers. Yes, Representative, they issued guidance 
about taking COVID positive patients.
    Mr. Jordan. Didn't mandate they take COVID positive 
patients? It said there was guidance on if you were, here's 
what you should do, right?
    Ms. Clowers. Correct.
    Mr. Jordan. Now, on March 25 there was a Governor from the 
great state of New York who issued guidance and said you have 
to take COVID positive patients and you can't test them before 
you put them in a nursing home; is that accurate?
    Ms. Clowers. I have seen those reports, yes, in terms of 
those policies of this handful of governors.
    Mr. Jordan. Yes, handful of governors.
    Did you guys look at that issue at all?
    Ms. Clowers. We have ongoing work looking at nursing home 
infections. As the Comptroller General mentioned, we----
    Mr. Jordan. Do you know how many days the Governor of New 
York told nursing homes you have to take COVID positive 
patients, and you can't test people and decide if they're 
coming in before if you don't know what--do you know how many 
days the Governor of New York did that?
    Ms. Clowers. I do not have the number off the top of my 
head.
    Mr. Jordan. Forty-six days. Now, contrast that with what 
the Governor of Florida did, the Governor of Florida said you 
cannot take--someone who maybe has symptoms, someone who's come 
to a hospital, you can't let them into a nursing home unless 
they have two negative tests before you let them back in.
    But you guys didn't cover that? You didn't get into that, 
but you're looking at it?
    Ms. Clowers. We're looking at it, both the nursing homes 
following CMS guidance, the guidance that has been put out, the 
data that----
    Mr. Jordan. Now, that's data this committee could use. I 
mean, the idea that a $2 trillion bill, the PPP program had a 
few glitches, everyone understands that. We were trying to get 
money out the door as fast as possible to save businesses, to 
save families. We all get that. But the study that would matter 
is the study you are doing. When are you going to have that for 
us?
    Ms. Clowers. We hope to have that later this fall, earlier 
this winter. We've already issued one on nursing home 
infection----
    Mr. Jordan. We need it sooner than that.
    Ms. Clowers. We can brief you as soon as----
    Mr. Jordan. Forty-six days, the Governor of New York, where 
this was the worst, the Governor of New York was putting COVID 
positive patients back in an environment where the most 
susceptible people were. We need a study much sooner than that. 
This study, everyone--this could have been--we knew this before 
you gave it to us.
    That's what we need to know, why that all happened, how bad 
it really was, the real numbers from New York and these other 
states that didn't follow the CMS guidelines, that had their 
own darn guidance, and I think caused tremendous harm and death 
to countless number of families and countless number of people. 
That's the study we need, and I hope it comes before the 
winter. I hope it comes, like, soon.
    Ms. Clowers. We'll work to move as fast as we can. Among 
other issues, we will also be looking at the PPE that was 
provided to the staff because, of course, that's important as 
well----
    Mr. Jordan. Sure.
    Ms. Clowers [continuing]. Because lots of staff were coming 
in and out of the community.
    Mr. Jordan. Sure.
    Ms. Clowers. So, we have a body of work on this issue to 
try and look at all of the factors that have led to the number 
of cases and deaths.
    Mr. Jordan. We need that study, and we need a hearing on 
that study ASAP.
    Mr. Clyburn. The gentleman's time has expired. I'm sure 
that the Governor of New York's decision caused all of those 
nursing home deaths in Texas.
    I'll yield five minutes to the gentlewoman, Ms. Waters.
    Ms. Waters. Thank you so very much, Mr. Clyburn.
    I'm really appreciative for the opportunity to have this 
information before us today that basically identifies what has 
happened with our attempt to respond to this pandemic with 
several things, facilities that are being created, of course, 
by the Feds, and the PPP program, which is perhaps the best 
known of all of the responses that we are attempting to do.
    I am, of course, concerned. The GAO has found that SBA and 
Treasury have failed to implement adequate safeguards to ensure 
that loans are only going to eligible recipients, and the 
report that basically teaches us that because of the number of 
loans approved, the speed with which they were processed and 
the limited safeguards, there's significant risk that some 
fraudulent or inflated applications were approved. And, of 
course, this was all done in such a short period of time, and 
we are spending record amounts of money.
    I want to ask you, if you have heard of anything--or 
legislation, rather, that is entitled ``The Paycheck Guarantee 
Act''?
    Mr. Dodaro. No. No, I have not heard of that.
    Ms. Waters. You have not heard of that. Ms. Jayapal, one of 
the Members of the House, has introduced a bill, and basically 
I think that the essence of that legislation is this: Instead 
of trying to organize all of these different efforts and create 
all of these facilities, et cetera, et cetera, we should 
basically pay people what they would be earning on their job if 
they were--as they were working, up to about $90,000 and let 
them pay their rent and let them pay their bills in the way 
that they would normally do it.
    Now, I don't know exactly how this would work with the PPP 
and the small businesses, but what do you think about that 
idea?
    Mr. Dodaro. Well, I can give it some thought and, you know, 
provide an answer for the record for the hearing. I mean, 
offhand, you know, it has the benefit of, you know, going 
direct to individuals without through intermediaries. I'm not 
sure how you would execute it, though, to ensure that you have 
accurate information; but I would be happy to think more about 
it and give you any thoughts that I have.
    Ms. Waters. Well, let me----
    Mr. Clyburn. Would the gentlelady yield for a moment--?
    Ms. Waters. Yes.
    Mr. Clyburn [continuing]. On that question? Let me refer 
you to there's several European countries that have used this 
approach, and so, I don't know that it may not be good to take 
a look at the experiences they have had there, and maybe let us 
know what you think about it?
    Mr. Dodaro. OK. Yes, we will do.
    Mr. Clyburn. OK.
    Mr. Dodaro. I will do that.
    Ms. Waters. Of course, I think by now, we all know a lot 
about what happened with PPP. We know that the banks executed 
the program for us essentially, and that they took--many of 
them or some of them took care of their concierge clients 
first. They set up a portal. I talked with a couple of CEOs, 
and they admitted what they had done.
    Are you aware of that?
    Mr. Dodaro. Yes, yes. Yes, but we won't be able to get that 
type of detail until we get the data, you know, from SBA.
    Ms. Waters. But you know that the banks, some of them, I'm 
not saying all of them, but some of the banks set up special 
portals for their concierge clients, and those turned out to be 
the ones who got the largest amounts of loans. And tell me, how 
did it happen that these hotels and these restaurants were able 
to identify each of their installations under 500 people, that 
they could get paid, get a loan for all of them? How did that 
happen?
    Mr. Dodaro. My understanding of that is that that was a 
change that was made in the legislation at the last minute to 
allow them to be able to do that, that that was part of the 
original legislation. It's my understanding, you know. If I'm 
wrong, I'll provide a correction to the answer for the record. 
But that allowed that industry to apply if they had 500 people 
or less employees per location.
    Ms. Waters. Did the SBA sign off on that?
    Mr. Dodaro. Pardon me?
    Ms. Waters. Did SBA sign off on that?
    Mr. Dodaro. I don't know their involvement in the 
legislation. I'm sure the administration did if the President 
signed the bill.
    Ms. Waters. Do you think that basically undermined what PPP 
was supposed to be about?
    Mr. Dodaro. Well, you know, I wouldn't second-guess the 
Congress on what it did and, you know, the legislation that it 
passed. So, I mean, I was assuming it was part of congressional 
intent if it's in the legislation.
    Ms. Waters. Of course, for small businesses.
    Mr. Dodaro. Congress--the legislation defined what 
businesses were eligible or not. I mean, that decision was in 
the legislation, from my understanding.

    Ms. Waters. Do you think that the application for small 
businesses was too cumbersome?
    Mr. Dodaro. We're looking at that issue now. We'll talk to 
some of the small businesses. There's been some concerns about 
that, as well as the application for loan forgiveness, which 
we'll be looking at that issue as well.
    But in many respects they relied on self-certification so 
that it shouldn't have been that big of a problem, but it could 
have been. But we just haven't been able to do the detailed 
work yet necessary to do this, because we want to go out and 
talk to small businesses who received loans, but we don't have 
that information yet.
    Ms. Waters. Thank you.
    Mr. Clyburn. The gentlelady's time has expired.
    The chair now recognizes Mr. Luetkemeyer.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    And thank you, Mr. Dodaro and your colleagues, for being 
with us today. I appreciate your years of service, and 
congratulations on your anniversary of service to our country.
    I just want to followup a little bit on some of the 
comments that were made with regards to the PPP program. I 
serve on the Financial Services Committee, and part of this 
actually comes through some of my subcommittee that we worked a 
lot with the administration on on these programs. I know that, 
for instance, the SBA got more money out the door in 14 days 
than they normally do in 14 years. I mean, that's pretty 
significant, that they were able to do that.
    The error rate that I saw was roughly $280 million out of 
$350 billion that was authorized, and that's about an eight 
ten-thousandth of a percent.
    Do you, in your years of experience and analysis, find any 
other program that can have an error factor of less eight ten-
thousandth of a percent that's a government program?
    Mr. Dodaro. Yes. Well, I haven't looked at the error 
factors. If it's accurate, OK, if it's accurate, it is a very 
good record.
    Mr. Luetkemeyer. Yes, that's the number that came out from 
the media, and I think the Treasury actually acknowledged that 
that's roughly what they're having to claw back from businesses 
that should not have got the PPP.
    Mr. Dodaro. Yes.
    Mr. Luetkemeyer. But that's a pretty good record, getting 
out in 14 days that much money and then only an error factor of 
eight ten-thousandth.
    Similarly, with the issue with regards to the stimulus 
checks going to people who shouldn't get them, you made a 
comment a while ago about Social Security's Death Master File, 
and it's something that you recommended, apparently for a 
number of years, that we, Congress, have never done. In fact, 
the Trump administration has proposed in every single budget to 
give Treasury access to this, and we, Congress, have not done 
that. Is that roughly correct?
    Mr. Dodaro. That's correct. And I know Treasury, I've 
talked to Secretary Mnuchin about this and the head of the 
Fiscal----
    Mr. Luetkemeyer. So, this problem could have been 
eliminated and alleviated if we, Congress, had done our job and 
allowed this to happen in previous years.
    Mr. Dodaro. That's a reasonable hypothesis, Congressman.
    Mr. Luetkemeyer. OK. Thank you very much for that.
    Also, your charge here is to figure the pandemic's effects 
on public health. I want to followup on that just a little bit, 
since we had a report in one of the local political magazines 
here that roughly 65,000 people die as a result--per month--as 
a result of the lack of focus on their healthcare needs due to 
suicides, opioid abuse, lack of cancer treatments, heart 
conditions that aren't addressed. You know, New York City even 
said they didn't do 80 percent of the brain surgeries that are 
necessary.
    Did your report look at this part of the healthcare 
picture? Because that's about 50 percent more people dying 
because of the lack of treatment versus attention on the COVID.
    Mr. Dodaro. Yes, we're going to take a look at that. We've 
been also focused in our report--let me ask Nikki to come up 
and talk about--our healthcare expert--to talk about that. 
We've been trying to focus on the numbers of the deaths that 
are over and above what would normally be expected over a 
period of time and then as one of the factors that we're 
looking at.
    But this issue about the other factors is a very important 
issue, and so we're going to be looking more about it.
    Nikki?
    Mr. Luetkemeyer. Very quickly. I've got one more question.
    Ms. Clowers. Certainly. Just exact type of indicator that 
we want to be developing, Representative, in terms of the 
impact on public health, those type of elective procedures. I 
think people often, when they hear elective, think it's 
nonessential. These are important procedures for people in 
terms of preventative care. So, we'll be examining how quickly 
hospitals get back to providing those.
    Mr. Luetkemeyer. You know, they said in here 650,000 cancer 
treatments, about half of them missed their treatment. About 
150,000 cases typically discovered each month are not being 
diagnosed. That's just on the cancer side.
    One more question before I run out of time here is with 
regards to right now there seems to be an increase in the 
number of cases that are detected. Obviously, we are testing 
more, so you would anticipate more tests, positive tests, as a 
result of that.
    Have you looked at the percentage of hospitalizations as a 
result of that and the number of deaths as a result of that? 
Because you would think, if the virus was at its same potency, 
you would still have the same number of hospitalizations, you 
would still have the same number of deaths. But, anecdotally, 
that's not happening. Can you verify that, or have you looked 
at that?
    Ms. Clowers. We are tracking that information. Both it's an 
important point in terms of watching the number of cases, but 
hospitalizations, as well as deaths, and the percent positive. 
Those are all indications in terms of the spread.
    One of the things we've pointed out in our report is that 
we do need better data at the Federal Government in terms of 
hospitalizations, for example, the number of ICU beds that are 
filled, and that's something we'll be continuing to track.
    Mr. Luetkemeyer. Well, it would seem to me, you know, we 
had about three weeks ago the University of Pittsburgh Medical 
Center, which according to what somebody told me yesterday is 
actually where they did the research and helped develop the 
polio vaccine, these are the experts of the experts, they said 
that the virus is losing its potency, it's mutating to a lesser 
strain, which, if it were having more positives but yet less 
hospitalizations and less deaths, would seem to indicate that 
this could be the case.
    So, I think this is a very important point that needs to be 
made with regards to the media is only telling you that the 
cases are increasing, but it doesn't tell you that the deaths 
continue to go down and hospitalizations continue to go down, 
as well as most hospitals still have the capacity to take care 
of that.
    Ms. Clowers. All those factors are important. All those 
data points are important.
    I would note hospitalizations and deaths tend to lag. So, 
it will be important to track this in the next couple weeks to 
see how that data changes.
    Mr. Luetkemeyer. OK.
    Thank you, Mr. Chairman. I'll yield back.
    Mr. Clyburn. Thank you very much.
    The chair now recognizes Ms. Velazquez for five minutes.
    Ms. Velazquez. Thank you, Mr. Chairman.
    And thank you, Comptroller Dodaro.
    From the beginning, I have been calling for the 
administration to provide Congress and the GAO with detailed 
data regarding the Paycheck Protection Program. It is our job 
to be good stewards of taxpayers' dollars and ensure our 
programs are working as we intended.
    In my call with SBA Administrator Carranza on Wednesday, 
she indicated that both Congress and GAO would be receiving 
loan data today. This is a good step, but we must work to 
guarantee GAO can interview and collect additional data to 
conduct its oversight responsibility. And this brings me to my 
first question.
    Mr. Dodaro, SBA indicated to me that they contacted GAO on 
June 23 about transferring full access to all PPP loan data. 
Have you responded to SBA? And does GAO have the necessary 
systems to securely receive that data?
    Mr. Dodaro. Yes, we have responded to them. We're in 
discussions with them about the details on how it would be 
done. And we definitely have the ability to secure the data. We 
deal with tax data, healthcare data, classified information of 
all stripes.
    Ms. Velazquez. Thank you.
    And in the same vein, has SBA indicated a time and date 
when they will provide you with access to officials so that you 
can conduct interviews?
    Mr. Dodaro. I think there's been one date offered so far, 
but I'm not sure about that.
    Ms. Velazquez. OK. So, you know, Mr. Chairman, to compare 
the loans made by SBA on 2019 to what they have done today is 
ridiculous. You know, they have a cap as to the 7(a) loan 
program that is the flagship loan lending program of SBA. 
Beyond that, they cannot lend any money.
    Plus the cuts that the agency has suffered under this 
administration. So, budgets have consequences. The E-Tran 
system, they shut it down. It's a result of the money that has 
been cut.
    So, the first SBA IG flash report noted that SBA 
implementation of the PPP did not align with the CARES Act 
objective of prioritizing underserved and rural markets.
    Has GAO been able to draw any conclusions as to what 
implementation failures led to so many rural and minority-owned 
businesses from being shut out of the PPP program during the 
initial rollout?
    Mr. Dodaro. We will be looking at that issue. But until we 
get the information, we're not in a position to determine that.
    Now, they also, from my understanding, did not collect 
demographic information, and they're trying to collect it as 
part of the loan forgiveness application, but it's voluntary. 
So, I don't know how many people are going to submit the 
information. But we're going to try to look at that and that's 
one of our key objectives.
    Ms. Velazquez. OK. So, you note SBA experienced IT 
challenges, such as crashes to the E-Tran portal, forcing SBA 
to shut down the site. Is GAO considering future reports on IT 
issues that may have resulted in some businesses not being able 
to access loans while other businesses may have received more 
than one loan?
    Mr. Dodaro. Yes, we'll take a look at that issue.
    Ms. Velazquez. Sir, do you think that it is important for 
the Small Business Committee to have access to the raw data so 
that if we need to make changes or if the administration comes 
back to us and says we need to approve more money and to 
provide more relief, how could we assess if the program is 
working as it was intended by Congress if we don't have access 
to that information? How many times have we requested the 
Administrator to come before the committee, and Secretary 
Mnuchin?
    So, it is not right, and we expect for them to come 
forward. She committed to me on Wednesday that she would be 
coming to the committee. When she asked me what steps or what 
intentions you have--and the committee--going forward regarding 
the program, my answer is: I don't have any data. I have no 
information to be able to make any responsible decision at this 
point.
    So, thank you, sir.
    I yield back.
    Mr. Clyburn. I thank the gentlelady.
    The chair now recognizes Mr. Green for five minutes.
    Mr. Green. Thank you, Mr. Chairman and Ranking Member 
Scalise, and thanks to our witnesses for being here today.
    There is understandably a lot of consternation in our 
country today about the spike in new coronavirus cases. As with 
all the other public health decisions we face this year, we 
have to make sure we take a holistic look at the data to ensure 
we have the truth and not some preferred narrative. Is the 
alarming spike in cases in parts of this country due to greatly 
increased spread or could there be another factor?
    Let's be honest. The United States is testing people for 
the coronavirus at unprecedented rates, and more people are 
willing to go see their doctor as the country reopens, so of 
course we will see an increase in cases. Some public health 
experts have estimated that we have 10 times the number of 
cases of coronavirus than being accounted for in testing.
    Others, like Dr. Francis Collins, the Director of the 
National Institutes of Health, have observed in the past, and I 
quote, ``The number of people who haven't yet turned up in the 
healthcare system but who already are infected is probably 100 
times the number of cases you know about,'' end quote.
    Even CNN--yes, I'm referencing CNN--reported just this week 
that a new study suggests 80 percent of cases were never 
reported in the month of March because we weren't testing as 
broadly as we are now.
    We've known since the beginning that there were likely far 
more cases overall than just the confirmed cases. And as we 
have ramped up testing, we see that to be the case.
    Dr. Donald Yealy of the University of Pennsylvania 
reinforced this point. He urged us, and I quote, ``to change 
our mindset and focus not exclusively on the number of cases 
but on the severity of the illness,'' end quote. Yealy 
continued and pointed out, quote, ``Fewer people are being 
admitted, and when they are, they tend to be much less sick 
than at the beginning or the peak phases of the pandemic,'' end 
quote.
    We have to look at the hospitalization rates in context. 
The CDC reports, and I quote, ``For people 65 years and older, 
current cumulative COVID-19 hospitalization rates are within 
ranges of cumulative influenza hospitalization rates observed 
at comparable time points during recent influenza seasons,'' 
end quote.
    Now, that's good news. And while we're clearly not out of 
the woods yet, we need to look at the data in context. 
Asserting that the President has failed to contain the virus 
because the cases are going up is either blindly uninformed or 
blatantly malicious.
    First, the goal was to flatten the curve, not stop every 
person from getting the virus. That's physically impossible. 
Trust me. I'm a physician.
    Any honest broker will realize that cases are going through 
the roof because we're testing through the roof. So, what is 
it, we have to have more tests or, now that we are, ``Oh, my 
dear, the President's failed us because we're testing more and 
there are more positives''? I think most people will see the 
ridiculous hypocrisy in that.
    The media continues their narrative, marching in lockstep 
with my Democrat colleagues, and they ignore the context and 
the facts.
    As I came in today, I saw a gentleman running on the 
sidewalk. There was no one within a hundred yards of the guy, 
yet he was wearing a mask while running. This speaks to the 
irrational fears this dishonest representation of the data by 
the media has caused.
    The media also ignores the fact that reopening society will 
save lives in other ways. Cancer screenings deemed nonessential 
but in reality, are very essential. Social isolation, which has 
devastating healthcare consequences, can come to an end if we 
open up and Americans can get back to work, feed their 
families, pay their rents, and save for their kids' college.
    Other data is also suspicious. Colorado's Governor just 
revised the state's deaths due to COVID down by 12 percent 
because he found that the state's health department was 
counting even automobile accidents from trauma deaths as COVID 
if the patient had the virus. That's absurd. Twelve percent.
    Now, my question to you, sir, is have you looked into how 
states are actually counting their COVID deaths? And, if so, 
are there other states that are going to be revising their 
numbers down 12 percent?
    Mr. Dodaro. One of the findings in our report is that the 
testing data that CDC's been reporting is inconsistent and not 
complete. Not all the test data has been reported, states are 
counting different things differently, and it's been a problem. 
So, you really don't have good, reliable data.
    Now, we were getting ready to make a recommendation here, 
but on June 4 CDC finally, through the Secretary of HHS, used 
the authority Congress gave them in the CARES Act to set out 
testing requirements to all labs in the country. So, hopefully 
the testing data will get better.
    Mr. Green. Hopefully, it's not 12 percent all across the 
country being revised down--or, well, maybe hopefully it is and 
then we'll get a real accurate contextual picture.
    Mr. Chairman, manipulating the data to fit a progressive 
narrative is damaging this country, and I ask that we stop it, 
especially in this committee.
    Thank you.
    Mr. Clyburn. I agree. I thank the gentleman. I agree with 
that. I also agree that ignoring science is damaging to our 
country.
    Mr. Green. I couldn't agree more. I try to practice 
evidence-based medicine, Mr. Chairman.
    Mr. Clyburn. I just want to say, you've asked, Mr. Ranking 
Member, that we have meetings in person. We've accommodated 
you. I would love for us to abide by the Attending Physician's 
recommendations.
    Mr. Green. Point of order, Mr. Chairman.
    Mr. Clyburn. Yes.
    Mr. Green. Point of order. CDC has said six-foot social 
distancing, you don't need a mask. We are 6 feet apart. We 
don't need a mask. When I came in today, I put my mask on 
because I walked past people. Now that I'm in a seat, I don't 
need a mask.
    Mr. Clyburn. You are a scientist.
    Mr. Green. Yes, sir.
    Mr. Clyburn. You are a physician.
    Mr. Green. Clinician, yes, sir.
    Mr. Clyburn. So, anyone walking past you and you don't have 
on a mask, you wear the mask to protect them.
    Mr. Green. Yes, sir, if someone comes by who doesn't have a 
mask on, I'll put mine on. Absolutely, yes, sir.
    Mr. Clyburn. Yes, well, I just want to say--I'm going to 
yield to you there, Mr. Foster--but I just want to say this.
    If you wish to continue having these meetings in person, 
you're going to have to adhere to the Attending Physician or I 
will not have the meetings in person. It's just that simple.
    Mr. Green. I understand. Thank you, Mr. Chairman.
    Ms. Waters. Mr. Chairman.
    Mr. Clyburn. Yes. I'll yield.
    Ms. Waters. Point of order.
    Mr. Clyburn. You're recognized, yes, ma'am.
    Ms. Waters. I'd like to raise the question of, if we are 
sitting here without a mask and we're speaking, is it possible 
that we could have emissions that are going on the desk, on the 
microphone around us?
    And if someone comes behind us who has not worn a mask and 
we are basically emitting on the table here on the dais, have 
we been told by the scientists that the virus remains on the 
surface for a certain length of time, depending on whether it's 
wood or steel, et cetera, and that if you contact that surface 
and you have emitted--there have been emissions, that you could 
become infected?
    Mr. Clyburn. Chairwoman Waters, I'm going to yield now to 
one of my favorite scientists.
    Mr. Jordan. Mr. Chairman.
    Mr. Clyburn. And maybe he'll weave an answer to that 
question.
    Mr. Jordan. Mr. Chairman.
    Mr. Clyburn. The chair recognizes Mr. Foster.
    Mr. Jordan. Mr. Chairman.
    Mr. Clyburn. Just a moment.
    Voice. Point of order.
    Mr. Clyburn. Mr. Jordan.
    Mr. Jordan. It seems to me science and common sense that 
you should not put COVID-positive patients back in nursing 
homes. That to me seems to be science based and common sense. 
And that's the study we need, as I indicated earlier.
    Mr. Clyburn. I have absolutely no control over the Governor 
of New York. I do have some control over this subcommittee, and 
I will exert it. Please rest assured I will exert what control 
I do have.
    Mr. Foster, you're recognized for five minutes.
    Mr. Foster. Thank you, Mr. Chairman and Comptroller Dodaro.
    Our greatest, best hope for finally emerging from this 
crisis is through the development of safe and effective 
vaccines and therapeutics. Great scientific progress has been 
made by scientists around the world, and many of these products 
are entering advanced clinical trials.
    But developing, manufacturing, and distributing vaccines 
and therapeutics are challenging and complicated tasks, 
especially in a compressed timeframe and with an often 
international supply chain. This requires not only great 
scientific efforts, but also good technical project management, 
a real strength of GAO.
    This is something, unfortunately, that we've not always 
seen in the Federal response to this crisis. As stated in the 
GAO's report, I quote, ``While multiple Federal agencies are 
taking actions to develop vaccines and therapeutics to prevent 
and treat COVID-19, questions remain about their timing and 
distribution.''
    Now, this should not be used as some sort of partisan 
hatchet. I know from conversations with my colleagues on both 
sides of the aisle on this committee that there is a great 
appetite for Congress and the American people to get the best 
possible information on the status and likely time scales of 
the results of these efforts.
    I also know from conversations with many of the scientists 
and executives involved that there is a real desire for them to 
present the full complexity of their efforts, not in the form 
of sound bites in hearings or answering feisty letters from 
Congress, but actually detailed briefings on the technical 
uncertainties of what they're trying to accomplish and the 
schedule uncertainties.
    This is important, I think, to not only every American, but 
certainly every elected official. A city mayor cannot make 
plans if they don't know whether a therapeutic will be 
available next month or not for years. And this sort of getting 
the best scientific information on when these will actually 
happen from a neutral third party is, I think, something that 
the GAO really is uniquely qualified to provide for us.
    So, Mr. Comptroller General, the GAO has expertise in 
technical project management. So, could you just say what 
capabilities does the GAO have today to provide oversight of 
vaccine and therapeutic development? And what additional 
capabilities might you be able to stand up to help this 
committee address these efforts?
    Mr. Dodaro. We've been building our capacities in the 
science and technology areas. In fact, we will have a Ph.D. in 
microbiology that has experience with vaccine therapies on 
staff here within a week as part of our effort, supported by 
the Congress, to grow that team. We have other people who have 
observed past efforts to build vaccines and distribute them. 
So, we have great capabilities.
    We also have standing arrangements with the National 
Academy of Sciences. We just completed a joint study with the 
National Institute of Medicine on use of artificial 
intelligence in drug development. And I also have people on my 
advisory committee that are making themselves accessible, 
including Harvey Fineberg, who used to be the President of the 
Institute of Medicine.
    So, we have in-house capabilities to do this, Congressman, 
and we have standing arrangements to get additional expertise.
    Mr. Foster. Thank you.
    In my many years in science I've been on the receiving end 
of GAO reporting on our projects, and I have to say that, 
although it was often painful at the time, it made the projects 
better, that having the GAO come in and ask the tough questions 
that we've sort of been hiding from or don't have good answers 
for, asking: Well, what if this happens? Do you have a 
contingency plan in this case? What are your plans if the virus 
mutates, you deploy a therapeutic and then the virus 
immediately mutates around it? What's your backup plan?
    And simply asking those questions will often make the 
project stronger and give Congress and the American people 
better information on probably the most important question that 
we're facing as a world right now.
    Mr. Dodaro. Well, we're planning to do that.
    Mr. Foster. Well, thank you. And I look forward to working 
with you.
    As I've mentioned, I've had good conversations on both 
sides of the aisle here on really standing up and getting an 
agreement between you and HHS, and to really get the kind of 
information, like your access to the data bases, so that you 
can get the answers that we need, so that if you've got access 
to things like the details of the contractual arrangements, the 
true projected capacity to manufacture different types of 
vaccines and therapeutics, and to be able to report in a timely 
manner, in almost real time, I think this could be one of the 
most valuable things that this select subcommittee could end up 
doing.
    Mr. Dodaro. Yes, I agree with you. We will make 
arrangements to do that. We've done that on, like, major weapon 
systems, look at the test data and analyze. Happy to do that. I 
agree with you, it's essential to attacking this issue 
thoroughly and providing proper safeguards, is vaccines and 
other therapeutics.
    Mr. Foster. Thank you. Well, you're uniquely situated. I 
appreciate that.
    I'll yield back.
    Mr. Clyburn. Thank you, Mr. Foster.
    The chair now recognizes Mr. Raskin for five minutes.
    Mr. Raskin. Thank you very much, Mr. Chairman.
    I just want to start with a few facts. Fact: 124,415 deaths 
in the United States from COVID-19. Fact: More than 2.4 million 
cases of infection among our people. Fact: Hospitalizations in 
Texas are up more than 215 percent since Memorial Day. Fact: 
Florida just reported 10,000 new coronavirus infections in two 
days. Fact: Arizona, as of yesterday, had more than 60,000 
cases, 1,467 deaths, and the infection continues to spiral out 
of control.
    Mr. Comptroller General, the GAO report raises questions 
about the IRS' handling of the economic impact statements, the 
stimulus checks, to get people through this nightmare.
    According to your report, the IRS has issued around 160 
million payments so far, but the agency has faced challenges 
and delays in getting checks to some of our most vulnerable 
people. That includes hard-to-reach populations like, quote, 
``individuals without bank accounts, the homeless, people with 
limited or no internet access, people with limited English 
proficiency.''
    Would you agree that these populations are especially 
vulnerable during a pandemic and a recession and are likely in 
need of this Federal support?
    Mr. Dodaro. Absolutely.
    Mr. Raskin. So, should this be a top priority for the IRS 
to reach these populations?
    Mr. Dodaro. Yes. And we'll be looking at their efforts to 
do so. I know they've started some on the Interagency Council 
on Homelessness and Men of Valor to help individuals coming out 
of prison. So, we'll be looking at it to see if we have any 
additional suggestions.
    Mr. Raskin. Your report says that IRS faced difficulties 
identifying and then delivering payments to people who did not 
file tax returns in 2018 or 2019, including recipients with low 
adjusted gross incomes.
    I've heard from a number of these people. These nonfilers 
usually have incomes below 12,000 a year and, according to one 
estimate, there are as many as 12 million nonfilers who may be 
at risk of missing out on their economic impact statement that 
they may need more desperately than the rest of the population.
    What should Treasury and IRS be doing now to ensure 
payments reach up to 12 million American nonfilers without any 
further delay?
    Mr. Dodaro. Yes. They need to explore different data 
sources to try to identify these individuals. That's one of the 
things we're going to look at and make some recommendations to 
them.
    Mr. Raskin. Well, when will that happen? It's just a matter 
of some urgency. My office, and I'm sure my colleagues' 
offices, are just besieged with people who desperately need 
this money.
    Mr. Dodaro. Yes. We're working on it. I hope to have those 
recommendations by our next bimonthly report.
    Mr. Raskin. OK. I'm working through the weekend during this 
pandemic. I hope your people are working through the weekend, 
too, to get that report.
    Mr. Dodaro. We wouldn't have been able to produce that 
report that you have there in 90 days since the law if we 
weren't working 24/7.
    Mr. Raskin. I appreciate that.
    GAO also reported that Treasury and IRS sent nearly $1.4 
billion in payments to 1.1 million decedents, that is, 
Americans who had already died. I had also heard from some 
honest constituents who called up and said: We got this check 
for my wife or my husband who's no longer with us.
    IRS apparently was aware this was happening back in March 
but didn't begin to correct it until months later. What's up 
with that? That's just shocking. How did that happen?
    Mr. Dodaro. Well, IRS' original determination was that the 
law required them to send the check to everybody who filed a 
return in 2018 or 2019. So, they figured it would include those 
people. So, they did it with foresight that that's what they 
were supposed to do. Then----
    Mr. Raskin. Well, OK, so let me pause you there, because 
that seems to contradict common sense. In other words, because 
we said that it should go to everyone who filed taxes, they 
thought it should go to people who had died.
    Mr. Dodaro. Right.
    Mr. Raskin. Who had filed taxes.
    All right. Well, what is the law? Because some people were 
saying: Should we cash this check? Why would the government be 
sending to it us?
    Mr. Dodaro. Right. Right. Yes. No, no, I agree.
    Mr. Raskin. Well, what is the correct legal interpretation?
    Mr. Dodaro. The correct interpretation, we believe, is 
Treasury's interpretation after that was that the intent was to 
help people who were affected by the situation, which wouldn't 
include people who were deceased. So, they stopped it at that 
point in time after IRS had made the first three payments.
    So, we believe the correct interpretation now is they 
should not have been sent, and our recommendation is to try to 
get as much of the money back as possible.
    Mr. Raskin. OK. And they've changed that policy of sending 
checks to people who have died?
    Mr. Dodaro. That's correct.
    Mr. Raskin. OK.
    Mr. Dodaro. Yes, they stopped that after the first three 
rounds.
    Mr. Raskin. All right. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Clyburn. Thank you very much, Mr. Raskin.
    The chair now recognizes Mr. Kim for five minutes.
    Mr. Kim. Thank you, Mr. Chairman.
    I just want to begin by just addressing something that came 
up earlier in this hearing. It was talked about CDC guidance 
when it comes to wearing a mask and social distancing.
    I just went onto the CDC website and just want to confirm 
that it says cover your mouth and nose with a cloth face cover 
when around others and continue to keep about 6 feet between 
yourself and others. It is not saying that it is one or the 
other. It is recommending both social distancing and using a 
mask.
    Moving forward, I have to say I'm very concerned about the 
Trump administration's failures when it comes to providing 
personal protective equipment and medical supplies that our 
communities need to keep safe. According to the GAO's report, 
there was an HHS exercise in August 2019 that determined, 
quote, ``that domestic manufacturing capacity would be unable 
to meet the demands for personal protective equipment and other 
supplies in the event of a global influenza pandemic.''
    This was months before the coronavirus pandemic, but the 
Trump administration failed to act on these findings. As a 
result, according to the GAO, quote, ``The nationwide need for 
critical supplies to respond to COVID-19 quickly exceeded the 
quantity contained in the Strategic National Stockpile.''
    Mr. Comptroller General, I wanted to ask you, do you agree 
that the Strategic National Stockpile had been short of the 
critical supplies that were needed during this pandemic?
    Mr. Dodaro. Yes. And that's been acknowledged, and they're 
trying to fix it now, and they're going to try to revamp the 
stockpile going forward.
    The exercise that you talk about, it's called Crimson 
Contagion, and it was pretty much an exercise that mirrored 
what exactly has happened with this particular COVID-19 
situation, and it identified things.
    Now, what they told us was that they didn't have enough 
time to react to the findings in there, that they did brief 
some Members of the Congress, but they're trying to revamp the 
national stockpile now.
    But the masks that were in there that were left over from 
H1N1 weren't effective anymore, and so they had to be replaced, 
or they were provided with a caveat about their potential 
ineffectiveness.
    Mr. Kim. What steps could have been taken and should have 
been taken to prepare for this to quickly replenish that 
stockpile, in your opinion?
    Mr. Dodaro. Yes, well, I mean, the issues--we raised this 
before in prior administrations as well, that there weren't 
enough ventilators in urban hospitals around the country. So, 
we've raised these issues over time.
    Our country has difficulty--and the hardest part of my job 
is getting people to act before there's a crisis--has great 
difficulty in preparing ahead for things. So, it's not unique 
to any administration. This has been a problem that I've seen 
throughout my career in government.
    Mr. Kim. So, earlier in this hearing----
    Mr. Dodaro. So, they could have--they had the information 
and everybody preceding had it in order to act on it, but they 
just--they didn't. Either the money wasn't appropriated, they 
didn't allocate it properly. We're looking more at the details 
about it, but clearly steps could have been taken previously 
and recently.
    Mr. Kim. It was characterized earlier in this hearing that 
some of the problems that we're facing with the government 
response were a few glitches. So, would you then categorize the 
problems in terms of the supply of PPE as a few glitches?
    Mr. Dodaro. I wouldn't categorize it that way.
    Mr. Kim. Now, beyond just the supply side of the issue, 
it's also about the coordination side. And this was something 
that was raised here. I think you wrote there had been reports 
of the Federal acquisition and distribution efforts to 
supplement the Strategic National Stockpile supplies lacked 
coordination and resulted in challenges obtaining supplies 
here.
    How did that lack of coordination hurt the efforts to 
obtain the critical supplies?
    Mr. Dodaro. Well, I think early on--I'll ask Ms. Clowers to 
elaborate--early on HHS was taking the lead here. Later it was 
shifted to FEMA. Then the President's--the task force, the 
White House Task Force came in, set up the unified command, and 
brought in people to focus on the supply chain.
    Mr. Kim. Would you characterize that as a few glitches?
    Mr. Dodaro. Pardon me?
    Mr. Kim. Would you categorize the problems when it comes to 
the coordination as a few glitches that caused the problems 
with getting the PPE to the states and the hospitals?
    Mr. Dodaro. No.
    Mr. Kim. When it comes to--one last part here that I just 
wanted to address. In your report you said you requested 
information on the Strategic National Stockpile inventory prior 
to the pandemic, the types and amount of supplies that states 
requested, as well as what HHS and FEMA distributed from the 
Strategic National Stockpile to the states' request. You said 
you did not have that information as of June 12th.
    That seems like very basic information to me about what is 
necessary to assess whether the stockpile is doing what it's 
meant to do. Have you received that information yet?
    Mr. Dodaro. Go ahead.
    Ms. Clowers. We have not.
    Mr. Kim. When did you make that request?
    Ms. Clowers. I don't have a specific date, but it's a 
request that we made fairly early on. But we'll continue to 
work with HHS.
    Mr. Kim. Have you been given a reason why you have not been 
receiving this information?
    Ms. Clowers. We have not.
    Mr. Kim. Do you know how much is in our stockpile right 
now?
    Ms. Clowers. I do not.
    Mr. Kim. A question is just, who pays for our stockpile?
    Ms. Clowers. There's a--the Federal Government provides 
appropriations. And as the Comptroller General mentioned, the 
appropriations have varied each year over a number of years in 
terms of what's been provided to maintain adequate supplies in 
the stockpile.
    Mr. Kim. Yes, that's absolutely correct. It comes from our 
government. It comes from the American people. It's the 
American people's stockpile, and they deserve to know what has 
been done to keep them safe.
    The American people are still under threat from this virus. 
We face rising cases across this country. We face a threat of a 
second wave later this year. And the American people deserve to 
know if we're ready, and your testimony and the report today 
makes me concerned that we're not ready.
    Mr. Chairman, back to you.
    Mr. Clyburn. I thank the gentleman.
    We have had questions from all of our members. I would like 
now to yield to the Ranking Member for any closing statement he 
would like to make.
    Mr. Scalise. Thank you again, Mr. Chairman, for holding 
this hearing in this committee room.
    Again, thank you, Mr. Dodaro, for your report, your 
testimony. I appreciate the fact that you've been working with 
the Trump administration to get the information you need to 
compile this report, as well as to continue providing us proper 
oversight. And I'm glad that in your testimony you made clear 
that you're getting that cooperation from the Trump 
administration.
    Clearly, there are other issues you're going to continue to 
work through with the Small Business Administration. As you 
testified today, they have been overwhelmed. Last year they 
issued about 36,000 loans under the 7(a) program and in eight 
short weeks they issued over 4-1/2 million loans through that 
same program, over 125 percent increase in workload in a time 
where we knew we had to move expeditiously. Time was of the 
essence to save millions of small businesses, to save millions 
of jobs so that families have the ability to pay their 
mortgage, to get back to work, to have their careers before 
them as we work through this pandemic.
    It's been unprecedented in terms of the response, the 
quickness that we've seen in getting testing brought to the 
market. Tests that would have taken two years for the FDA to 
approve have been approved instead in weeks, following safety 
guidelines but removing red tape.
    I applaud the Trump administration for implementing 
Operation Warp Speed to push more results for families, to get 
more testing, to get more cures, therapies. We're seeing 
revolutionary changes, drugs like Remdesivir, that are proving 
effective for many people of COVID-19.
    That would not have happened without the Trump 
administration moving red tape out of the way so we could save 
lives, continuing to search for a vaccine at rapid speed that 
we're seeing in the private sector because red tape has been 
cut. We need to continue to push for those kinds of reforms and 
that kind of expeditious response.
    Now, clearly when you move expeditiously there can be 
mistakes made. It's good for us to look at finding out what 
those mistakes are and correct them. I'm glad you testified 
that you are seeing agencies like the IRS correct things along 
the way that they found.
    But we also have seen that, based on your findings that you 
presented, so far the PPP program has more than a 99 percent 
success rate. That is revolutionary for a program that has 
given out loans to over 4-1/2 million small businesses, over 
500 billion taxpayer dollars that have been used properly, as 
we all voted for. Republicans and Democrats joined together to 
say let's help these small businesses quickly. To have over a 
99 percent effective rate.
    Let's go find the folks who abused it. Let's go get that 
money back. And I'm glad the administration's working to do 
that. But for somebody to suggest that a program that has over 
a 99 percent success rate is a failure or shouldn't have 
happened is ludicrous.
    Again, millions of families would be out of work. Small 
businesses that would be closed. Even with the unemployment 
numbers we're seeing each week, those numbers are dropping 
because businesses are starting to open again.
    Again, we look back to the science. As Dr. Green talked 
about, why did we do this? We didn't do this to hope that 
nobody gets coronavirus. Sure we hope that nobody gets 
coronavirus. But in a real world we know it's still out there. 
And so the question is, do we just shut everything down and 
wreck our economy, wreck the livelihoods?
    And, again, as Dr. Green pointed out, there are thousands 
of people dying because they're staying at home. They're not 
going to their doctor. They're not getting their checkups and 
their cancer treatments and their colonoscopies and their 
mammograms and their immunizations. Children will die because 
they're not getting immunized.
    So, there's a cost to keeping people at home as well. We 
need to look at all of that.
    We've talked in this committee about the nursing home 
crisis that happened. Yes, every state experienced nursing home 
deaths, but not all states experienced it at the same level. 
Let's just look at the data we've gotten so far.
    And, again, we're trying to get more data because some of 
these states are hiding the data. But what we know, if you look 
at the five states that violated the CMS guidelines, went 
against the science, tens of thousands of people died that 
shouldn't have died. We want to know about that.
    I'm glad that you're looking into it. As Mr. Jordan said, 
we hope that you do that quickly as well, because we need to 
stop it from happening where it is still going on. In states 
like Michigan, where we know this is killing people to force 
nursing homes to take back COVID-positive patients if they 
can't isolate them, it killed tens of thousands of people and 
probably a lot more.
    I know the chair brought up the state of Texas. The state 
of Texas had 700 percent fewer nursing home deaths per capita 
than the state of New York. Of course, they had deaths, every 
state had nursing home deaths, but not all states experienced 
the same thing. The state of Florida had over 500 percent fewer 
nursing home deaths per capita than the state of New York.
    We ought to be looking at where it's working well, where 
it's working poorly, stop it from working poorly, and say, why 
don't you follow the guidelines that the folks who are doing it 
right are?
    I'd love to have zero nursing home deaths. But 700 percent 
fewer in one state than another, you should be looking and 
going, why are they doing it right and why are they not?
    And finally, Mr. Chairman, and to all of our members, I 
know we're looking at the ICU beds. Again, the economy was 
closed down to make sure our hospitals don't get overwhelmed. 
And as we speak today, there's not a single state in the Nation 
whose hospital system is overwhelmed.
    We've seen spikes, clearly we're following the spikes, and 
the governors are managing that, but not a single state in this 
Nation has their hospital system overwhelmed. That was the 
barometer for closing the economy down. It's why we need to 
reopen safely. And, again, to address the people that are dying 
because things are closed down, that has to be understood as 
well.
    So, I appreciate the report you gave. I look forward to the 
future reports.
    I hope the governors of those five states comply with the 
letter we sent, and I'm going to get you a copy of this. There 
were very specific things we've asked for that they're 
recording. They're just not sharing it with the public.
    We need to know more about what happened in those states 
that didn't follow the Federal guidelines, and the result was 
that thousands of people died in nursing homes that shouldn't 
have.
    Why are they hiding the data? What do they have to hide? We 
ought to find it out. I appreciate that you're going to join 
with us to finally get the facts and uncover this scandal.
    With that, I yield back.
    Mr. Clyburn. I thank the gentleman for yielding back.
    Let me close by thanking Mr. Dodaro, Ms. Brown, and Ms. 
Clowers for being here today. We appreciate all the work you do 
to hold our government accountable, especially during this 
terrible pandemic.
    Today's hearing has made clear that there are tangible 
steps the Federal Government can take now to increase 
transparency, to demand accountability from those receiving 
Federal funds, and to ensure that tax dollars are used to help 
the American people and are not diverted due to waste, fraud, 
and abuse.
    I want to thank the ranking member for calling attention to 
what happened last month and the month before in New York. I 
think we all would like to know what happened last week in 
South Carolina, my home state, in Georgia, in Florida, in 
Texas, in Arkansas, in Oklahoma. All those states are spiking 
within the last week.
    And I'm interested in last week and what we can expect next 
week, as opposed to spend all of our time trying to figure out 
where the virus came from. I would hope that we spend a little 
time trying to figure out where the virus is going next so as 
to be prepared for it.
    We talked a little bit today, I thank the gentleman from 
Illinois for raising the issue of vaccines. I'm old enough to 
remember the last time the country wrestled with vaccines. I 
was around. I was a school kid when we had the polio vaccines.
    There was an ``s'' on that. Jonas Salk came up with a great 
vaccine. Required a shot. Albert Sabin came up with a great 
vaccine, a little drop of serum on a lump of sugar, and 
according to all the science it was more effective than Salk.
    I happen to remember which communities got Salk and which 
communities got Sabin. I grew up in the communities that got 
Salk, the least preferred and the least effective.
    Now, I know there are going to be about 19--there are about 
19 countries that supposedly are in search of a vaccine. That's 
what I want to see this committee focus on: What vaccines come 
forward, the effectiveness of the vaccines, and where they're 
allocated, not just the efficiency of the work, but how 
effective it's going to be and how equitable it will be 
distributed.
    I grew up a victim of that which is not equitable, and I'm 
not going to preside over a process that will revisit that or 
even continue it. So, you can wallow in the past. I'm going to 
be concerned about the future.
    And thinking about the future, let me just read, for our 
benefit, this is a document from the Attending Physician, and I 
want to read it.
    ``For U.S. House of Representatives meetings in a limited 
and closed space, such as a committee hearing room, for greater 
than 15 minutes, face covering are required,'' in all caps.
    That's not me. That's the Attending Physician. And we are 
not going to have another meeting in a confined space for more 
than 15 minutes if we're not going to abide by this. I will 
stay in the safety of my home. In fact, I would ask all you to 
do.
    I grew up believing that the first sign of a good education 
is good manners. I think it's good manners to look out for your 
fellow men. I see all the staff wearing masks. I don't know 
what this is that we are pretending----
    Mr. Scalise. Mr. Chairman, will you yield on that?
    Mr. Clyburn. I'll be glad to yield.
    Mr. Scalise. I thank the chairman for yielding.
    And as Dr. Green pointed out, there are guidelines out 
there for how to properly social distance and we're following 
those.
    I understand doctors might look at things differently and 
want to give even extra precautions. But the precautions that 
have been out there are clearly being followed, and Dr. Green 
pointed that out.
    None of us would want to put anybody else in harm's way. 
It's why the House has been having votes on the House floor 
safely, properly, with social distancing, with the necessary 
supplies to make sure we can wipe down spaces as we're all--not 
here, but in the House floor, we're working in a similar area, 
speaking at podiums, and, as one person moves out, they wipe 
down the area and another person follows those guidelines, just 
like we do here.
    I would yield back.
    Mr. Green. Mr. Chairman.
    Mr. Raskin. Mr. Chairman.
    Mr. Clyburn. Mr. Raskin.
    Mr. Green. I'd yield to Mr. Raskin.
    Go ahead. After you, sir, please.
    Mr. Raskin. OK.
    I really wish, Mr. Chairman, we could work this out 
pursuant to your suggestion, following the exact instructions 
of the Capitol physician.
    Look, we don't have a cure right now, we don't have a 
treatment, and we definitely don't have a vaccine. We've got 
one thing, which is the public health guidance from Dr. Fauci, 
the Centers for Disease Control, and the vast majority of the 
doctors in the land who do not think this is a hoax and do not 
think this is invented and they don't think it's political. And 
there's one thing we can do. We can put our masks on, and we 
can keep our distance.
    And I don't understand why my friends in the minority, who 
I know are sincerely motivated people, would lambaste the 
majority for trying to keep the continuity of government going 
with committee meetings, online with remote or through proxy 
voting, and say, ``Everybody needs to be here, everybody needs 
to be here,'' and then show up and not wear masks, and put 
terror and fear in your colleagues and perhaps your staff.
    Ms. Waters lost her sister to this disease. We have lots of 
colleagues who have gotten COVID-19. We've lost more than 
125,000 of our countrymen and--women. There's no other country 
in the world in which wearing a mask has become a political or 
ideological statement. It's a public health measure.
    You know, we've got a rule which says you have to wear a 
jacket on the floor of the House. And I know people tease our 
friend, Mr. Jordan, about never wearing a jacket. You know, I 
don't care about his not wearing a jacket. That's a fashion 
statement. But when he doesn't wear a mask and interacts with 
people in the legislative assembly, it's dangerous. That is a 
public health menace.
    So, could we all agree that we will abide by the chairman's 
suggestion and the Capitol physician's strict recommendation 
and let's go forward and let's try to meet together as much as 
possible, as opposed to driving us away from the Capitol?
    Mr. Scalise. Could I ask my friend, in reference to Mr. 
Jordan, I think you used the term ``public menace.'' I hope you 
weren't referring to him. He walked out of here with a mask on. 
I hope you noticed that.
    Mr. Raskin. He walked within one foot of our friend, Mr. 
Green. I saw it happen. And they whispered to each other. It 
happens all the time. You know, we might think we're in these 
six-foot bubbles, but we're not.
    I see it happening on the floor on both sides of the aisle. 
You start to hang around with people. We're social beings, and 
people begin to interact.
    Did you see what happened in the Pennsylvania Legislature 
where one of the legislators came down with it, told his party, 
but didn't tell the other party? It created absolute panic and 
more division.
    Why are we the only country on Earth where this is now a 
matter of polemical partisan debate instead of just public 
health order? Why don't we just follow what the public health 
authorities are telling us to do?
    Mr. Clyburn. The chair recognizes Mr. Green.
    Mr. Green. Mr. Chairman, let me say, before I cite this 
study that just came out June the 27th, that if you put the 
gavel down and say we want to wear a mask or we're going to 
require it, I'll wear my mask.
    But I do want to inform the committee, The Lancet published 
just on June 27th a meta-analysis. A meta-analysis is where 
they look all these other studies and they compile the data and 
draw conclusions with hopefully more confidence because they're 
looking at multiple studies.
    They looked at 172 studies across 16 countries on 6 
continents. They found that a 1-meter distance increased--it 
decreased your risk with moderate certainty.
    Now, when they do these meta-analyses, they say high 
certainty, the data is convincing enough to say that there's 
high certainty that the conclusion is accurate. There's 
moderate certainty, and then there's low certainty. On the mask 
issue, it was low certainty that it makes a difference.
    The New England Journal of Medicine, one of the most 
respected journals in the Nation, had an article several weeks 
ago that said outside the healthcare segment the masks don't 
work.
    Now, it was referenced earlier about fomites, but, yet, 
documents are being passed around in here all the time. Are we 
sterilizing each document before we hand it off to one another? 
I haven't seen that.
    This mask that was sitting outside is there for anyone. 
They could go to the bathroom and come in and pull a mask out 
and touch other masks in the stack and then the next person 
comes along and collects the masks. We're not doing surgical 
sterilization here.
    I just want us--we have to be consistent. And if you say, 
``Green, I want you to wear a mask,'' sir, I'll wear a mask. 
You're the chairman of my committee. But I want us to make 
decisions based on sound data and information.
    Thank you, sir.
    Mr. Clyburn. Will you yield for a question?
    Mr. Green. Yes, sir, I will.
    Mr. Clyburn. Are you arguing that we should not meet in 
person?
    Mr. Green. No, sir, not at all. I think with the social 
distancing----
    Mr. Clyburn. That sounds like the argument you're making to 
me.
    Mr. Green. No, I don't--I don't----
    Mr. Clyburn. Because of all--because there's no certainty, 
the mask may not work. But we know how the disease is 
transmitted. So, if the mask has such a low probability of 
working, maybe we ought not be meeting in person.
    Mr. Green. If you're asking my clinical opinion, sir----
    Mr. Clyburn. Yes.
    Mr. Green [continuing]. My opinion is, is that patients who 
are in high-risk categories----
    Mr. Clyburn. Oh, patients----
    Mr. Green. People, individuals. Anyone who's 65 years or 
older----
    Mr. Clyburn. That's me.
    Mr. Green [continuing]. That has comorbidities should wear 
a mask. If you don't, I'm telling people in Tennessee it's not 
required.
    Mr. Raskin. Mr. Chairman, could I ask about that?
    As I understand it, the mask is not to protect me. It gives 
me a little protection. But it's to protect other people in the 
event that I'm infected. And a majority of the infections, I 
understand, are of people who are asymptomatic or pre-
symptomatic. So, you don't know whether you've got it.
    We have Members of Congress who didn't realize they had it 
and they were fraternizing with everybody else and any of us 
would do that if that were the rule.
    So, why is this so complicated? There's one thing we can do 
to try to protect other people when we're together, which is 
put on a mask. It doesn't cost us anything. Why would we not do 
that? Why is it some kind of macho thing, like, if I don't wear 
a mask, I'm tough?
    I think if you want to be tough, go spend a day with the 
nurses and the doctors in the hospital and all of them come out 
and say: Everybody wear your mask. Listen to them. You don't 
want to spend the day with them, at least listen to them. All 
of the first responders are saying: Save us from this 
nightmare, wear your mask.
    Mr. Green. I can cite many other professionals who are 
saying just the opposite. So, that's the challenge we're in 
right now.
    Mr. Raskin. They're saying don't wear a mask?
    Mr. Green. When I'm around, I'm not wearing a mask, no.
    Mr. Raskin. Will you send us the medical advice that people 
not wear a mask? Because I haven't seen that.
    Mr. Green. I can share some medical literature with you, 
Mr. Raskin.
    Mr. Raskin. It's against the Centers for Disease Control.
    Mr. Green. I know what they're putting out.
    Mr. Raskin. And Harvard University, Johns Hopkins, all the 
studies I've seen.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Clyburn. OK. Without objection, all members will have 
five legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response. I ask our 
witnesses to please respond promptly, as promptly as are you 
able to.
    With that, this hearing is adjourned.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
